LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5505 Connecticut Avenue, NW #307
Washington, DC 20015

Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002

February 13, 2020

RE 19-874: WILLIAM ALAN PESNELL, ET AL. V. JILL SESSIONS, ET AL.
Dear Sir or Madam:
I hereby certify that at the request of counsel for Respondent Jennifer Bolden, on
February 13, 2020, I caused service to be made pursuant to Rule 29 on the following counsel
for the Petitioners and other Respondents:
PETITIONERS:
Billy R. Pesnell
The Pesnell Law Firm, A P.L.C.
400 Travis Street, Suite 1100
Shreveport, LA 71101
318-226-5577
bill@pesnelllawfirm.com

RESPONDENT JILL SESSIONS:
Elizabeth Baker Murrill
Office of the Attorney General
P.O. Box 94005
Baton Rouge, LA 70804-9005
225-326-6766
murrille@ag.louisiana.gov

RESPONDENTS JUDGES MICHAEL O.
CRAIG, JEFF R. THOMPSON, JEFF
COX, E. CHARLES JACOBS, MICHAEL
NERREN, AND PARKER O. SELF:
Ms. Emily G. Andrews
Louisiana Department of Justice
P.O. Box 94005
Baton Rouge, LA 70804
225-326-6000
andrewse@ag.state.la.us

Mr. Glenn L. Langley
Ms. Julianna Parks
Langley, Parks & Maxwell LLC
401 Market St., # 1100
Shreveport, LA 71101
glangley@lphmlaw.com
jparks@lphmlaw.com

Hon. Eric R. Harrington
c/o 26th Judicial District Court
204 Burt Blvd.
Benton, LA 71006
judgeharring@cp-tel.net
Ms. Lillian Evans Richie
Judicial Administrator/Clerk of Court
Second Circuit Court of Appeal
430 Fannin Street
Shreveport, LA 71101

Mr. James D. Southerland
P.O. Box 338
Benton, LA 71006
souther1@bellsouth.net
Ms. Jill Sessions
Bossier Parish Clerk of Court
P.O. Box 430
Benton, LA 71006-0430

clerk@bossierclerk.com

lrichie@la2nd.org
This service was effected by depositing three copies of a Brief in Opposition of
Respondent Jennifer Bolden in an official “first class mail” receptacle of the United States Post
Office as well as by transmitting digital copies via electronic mail.
Sincerely,
Sworn and subscribed before me this 13th day of February 2020.

Jack Suber, Esq.
Principal

